No. ______

In the Supreme Court of the United States
CJ CHEILJEDANG CORP., CJ AMERICA, INC., PT.
CHEILJEDANG INDONESIA, PETITIONERS,
v.
INTERNATIONAL TRADE COMMISSION, AJINOMOTO CO.,
INC., AJINOMOTO ANIMAL NUTRITION
NORTH AMERICA, INC.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
PETITION FOR A WRIT OF CERTIORARI

STEVEN PEPE
RACHAEL BACHA
HYUN-JOONG KIM
ROPES & GRAY LLP
1211 Avenue of the Americas
New York, NY 10036
JAMES F. HALEY, JR.
BRIAN M. GUMMOW
HALEY GUILIANO LLP
75 Broad Street
Suite 1000
New York, NY 10004

DOUGLAS HALLWARD-DRIEMEIER
Counsel of Record
MATTHEW J. RIZZOLO
ROPES & GRAY LLP
2099 Pennsylvania Ave, N.W.
Washington, DC 20006
(202) 508-4600
Douglas.Hallward-Driemeier@
ropesgray.com
PHILLIP Z. YAO
ROPES & GRAY LLP
800 Boylston Street
Boston, MA 02199

QUESTION PRESENTED
The doctrine of equivalents in patent law prevents
a would-be infringer from avoiding infringement by
making insubstantial changes to a patented invention.
But, when a patentee narrows its claims during prosecution to overcome a rejection, the patentee is presumed
to be estopped from later invoking the doctrine of equivalents to recapture the territory between the original,
broader claim and the narrower, amended one. Prosecution history estoppel ensures that the doctrine of equivalents does not defeat the patent’s public notice function.
In Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., this Court held that prosecution history estoppel can be rebutted if the patentee demonstrates
“that at the time of the amendment one skilled in the art
could not reasonably be expected to have drafted a claim
that would have literally encompassed the alleged equivalent.” 535 U.S. 722, 741 (2002). As relevant here, a patentee could do so by showing that “the rationale underlying the amendment * * * bear[s] no more than a tangential relation to the equivalent in question.” Id. at 740.
Until the decisions in this case and Eli Lilly & Co. v.
Hospira, Inc., 933 F.3d 1320 (Fed. Cir. 2019), the Federal
Circuit had consistently held that a patentee’s silence at
the time of amendment could not satisfy this exception.
Here, however, the Federal Circuit held that the rationale can be provided post hoc, in light of the product
accused in litigation. The question presented is:
Whether, to avoid prosecution history estoppel under Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki
Co., “the rationale underlying the amendment” must be
the rationale the patentee provided to the public at the
time of the amendment.
(I)

PARTIES TO THE PROCEEDING BELOW
AND RULE 29.6 STATEMENT
All parties are identified in the caption of this petition. Petitioner CJ CheilJedang Corp. is a parent corporation of petitioners CJ America, Inc. and PT.
CheilJedang Indonesia with more than 10% ownership.
CJ Corporation is a parent corporation of petitioner CJ
CheilJedang Corp. with more than 10% ownership.
RELATED PROCEEDINGS
This petition is related to Investigation No. 337-TA1005 in the United States International Trade Commission. Respondents Ajinomoto Co., Inc. and Ajinomoto
Animal Nutrition North America, Inc. (formerly known
as Ajinomoto Heartland Inc.) have also brought patent
infringement claims against petitioners under the same
two patents asserted in Inv. No. 337-TA-1005 (U.S. Patent Nos. 6,180,373 and 7,666,655) in the Southern District of New York: Ajinomoto Co., Inc. v. CJ
CheilJedang Corp., 1:16-cv-03498-JGK (SDNY). That
case was stayed pending Inv. No. 337-TA-1005 and is
currently closed administratively.

(II)

TABLE OF CONTENTS
Page
Opinions below ..................................................................... 1
Jurisdiction ........................................................................... 2
Statement of the case .......................................................... 2
Applicable legal doctrines ............................... 5
1.

The doctrine of equivalents,
counterbalanced by prosecution
history estoppel....................................... 5

2.

The tangential exception, pre-2019 ...... 7

Proceedings below ........................................... 8
1.

Prosecution history of U.S. Patent
No. 7,666,655 and the alleged
equivalent ................................................ 8

2.

The International Trade
Commission............................................ 10

3.

The Federal Circuit appeal ................. 11

Reasons for granting the petition ................................... 13
I.

II.

The Federal Circuit’s decision undermines the
public notice function of a patent’s prosecution
history ........................................................................ 15
A.

Prosecution history estoppel is a key
component of patents’ public notice
function ............................................................ 15

B.

The public notice function of the prosecution
history is undermined by the Federal
Circuit’s use of a post-hoc rationale in the
face of a patentee’s silence ............................ 18

The Federal Circuit’s new rule poses a grave
threat to innovation ................................................. 22
(III)

IV
Table of Contents—Continued

Page

III. Restoring the public notice function of prosecution
history requires this Court’s immediate
intervention, and this case is an ideal vehicle ...... 24
A.

This case (and Hospira) sharply break from
precedent ......................................................... 24

B.

The patentee’s silence in the prosecution
history makes this case the ideal vehicle for
certiorari.......................................................... 26

Conclusion........................................................................... 28
Appendix A — Court of appeals majority opinion
(Aug. 6, 2019) ........................................ 1a
Appendix B — Court of appeals Judge Timothy B. Dyk
opinion (Aug. 6, 2019) ........................ 36a
Appendix C — International Trade Commission
opinion (Jan. 11, 2018) ....................... 44a
Appendix D — Court of appeals order denying
rehearing (Nov. 25, 2019) ............... 110a
Appendix E — Court of appeals judgment
(Aug. 6, 2019) .................................... 112a

V
TABLE OF AUTHORITIES
Page(s)
Cases:
Duncan Parking Techs., Inc. v. IPS Grp., Inc., 914
F.3d 1347 (Fed. Cir. 2019) .................................... 22
Eli Lilly & Co. v. Hospira, Inc., 933 F.3d 1320
(Fed. Cir. 2019) ............................................. passim
Evans v. Eaton, 20 U.S. 356 (1822)........................... 16
Exhibit Supply Co. v. Ace Patents Corp., 315
U.S. 126 (1942).................................................. 19, 20
Felix v. Am. Honda Motor Co., 562 F.3d 1167
(Fed. Cir. 2009) .................................................. 7, 25
Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co., 344 F.3d 1359 (Fed. Cir.
2003), cert. denied, 541 U.S. 988 (2004) ............ 3, 7
Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co., 535 U.S. 722 (2002) ............ passim
General Elec. Co. v. Wabash Appliance Corp.,
304 U.S. 364 (1938)........................................... 15, 17
Graham v. John Deere Co., 383 U.S. 1 (1966) ........... 5
Honeywell Int’l, Inc. v. Hamilton Sundstrand
Corp., 523 F.3d 1304 (Fed. Cir.), cert.
denied, 555 U.S. 939 (2008) ..................... 3, 7, 22, 25
I.T.S. Rubber Co. v. Essex Rubber Co., 272
U.S. 429 (1926).................................................. 19, 20
Insituform Techs., Inc. v. CAT Contracting,
Inc., 385 F.3d 1360 (Fed. Cir. 2004) ................ 7, 25

VI

Cases—Continued:

Page(s)

Intervet Inc. v. Merial Ltd., 617 F.3d 1282
(Fed. Cir. 2010) .................................................. 8, 26
Kewanee Oil Co. v. Bicron Corp., 416 U.S. 470
(1974) ................................................................... 5, 24
Keystone Driller Co. v. Nw. Eng’g Corp., 294
U.S. 42 (1935)............................................................ 6
Nautilus, Inc. v. Biosig Instruments, Inc., 572
U.S. 898 (2014).............................................. 4, 15, 16
Pioneer Magnetics, Inc. v. Micro Linear Corp.,
330 F.3d 1352 (Fed. Cir. 2003) ............................... 7
Regents of Univ. of Cal. v. Dakocytomation
Cal., Inc., 517 F.3d 1364 (Fed. Cir. 2008) ....... 8, 25
Shepard v. Carrigan, 116 U.S. 593 (1886) ................ 19
Warner-Jenkinson Co. v. Hilton Davis Chem.
Co., 520 U.S. 17 (1997) .................................. passim
Statute:
28 U.S.C. 1295 .............................................................. 26

In the Supreme Court of the United States
CJ CHEILJEDANG CORP., CJ AMERICA, INC., PT.
CHEILJEDANG INDONESIA, PETITIONERS,
v.
INTERNATIONAL TRADE COMMISSION, AJINOMOTO CO.,
INC., AJINOMOTO ANIMAL NUTRITION
NORTH AMERICA, INC.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

___________
PETITION FOR A WRIT OF CERTIORARI
___________
Petitioners CJ CheilJedang Corp., CJ America, Inc.,
and PT. CheilJedang Indonesia respectfully petition for
a writ of certiorari to review the judgment of the United
States Court of Appeals for the Federal Circuit.
OPINIONS BELOW
The opinion of the court of appeals (App., infra, 1a43a) is reported at 932 F.3d 1342. The public version1 of
the relevant International Trade Commission decision
(App., infra, 44a-109a) is reported at 82 Fed. Reg.
60,763-60,764.
1

While the full International Trade Commission decision included certain material redacted for confidentiality reasons, none of
the redacted material is relevant to the issues raised in this petition.

(1)

2
JURISDICTION
The court of appeals entered judgment on August 6,
2019 (App., infra, 112a-113a). A timely petition for rehearing was denied on November 25, 2019 (App., infra,
110a-111a). The jurisdiction of this Court rests on 28
U.S.C. 1254(1).
STATEMENT OF THE CASE
This case presents an important issue at the heart of
the patent system: the public’s ability to rely on a patentee’s representations to the Patent Office during
prosecution (called the “prosecution history”) to determine the metes and bounds of a claim. During prosecution, when the Patent Office rejects a claim as unpatentable in view of the prior art, the patentee often chooses
to narrow its claims to avoid that art and secure allowance of the amended claim. This results in a presumption
of prosecution history estoppel, preventing the patentee
from later relying on the doctrine of equivalents2 to recapture the surrendered territory between the original,
broader claim and the narrower, amended claim. Such
estoppel places “reasonable limits on the doctrine of
equivalents” to ensure that it does not conflict with the
underlying public notice and disclosure functions of the
Patent Act. Warner-Jenkinson Co. v. Hilton Davis
Chem. Co., 520 U.S. 17, 34 (1997).
In Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., the Court held that to rebut the presumption of prosecution history estoppel, a “patentee must
show that at the time of the amendment one skilled in
2

The doctrine of equivalents prevents a would-be infringer
from avoiding infringement by making insubstantial changes to a
patented invention.

3
the art could not reasonably be expected to have drafted
a claim that would have literally encompassed the alleged equivalent.” 535 U.S. 722, 741 (2002). As relevant
here, the Court stated that a patentee could avoid estoppel by demonstrating that “the rationale underlying the
amendment * * * bear[s] no more than a tangential relation to the equivalent in question.” Id. at 740.
Since Festo, this Court has not had occasion to clarify that, consistent with the principle of public notice, a
patentee must have stated the “rationale” in question on
the record at the time of the amendment. Until recently,
there was no need to do so. The Federal Circuit itself
had applied such a limit, holding that the rationale
“should be discernible from the prosecution history record, if the public notice function of a patent and its prosecution history is to have significance.” Festo Corp. v.
Shoketsu Kinzoku Kogyo Kabushiki Co., 344 F.3d 1359,
1369 (2003) (en banc), cert. denied, 541 U.S. 988 (2004).
“Silence,” the Federal Circuit has recognized, “does not
overcome the presumption.” Honeywell Int’l, Inc. v.
Hamilton Sundstrand Corp., 523 F.3d 1304, 1316, cert.
denied, 555 U.S. 939 (2008).
In the present case and Eli Lilly & Co. v. Hospira,
Inc., 933 F.3d 1320 (2019), issued within days of each
other, the Federal Circuit adopted a new rule that applies the “tangential exception” to prosecution history
estoppel even where the patentee gave no contemporaneous explanation in the prosecution history for why it
chose the particular amended claim language or how the
amendment overcame the rejection. The Federal Circuit’s departure from its own and this Court’s precedent
disrupts the delicate balance between the doctrine of

4
equivalents and prosecution history estoppel that this
Court has established.
The court of appeals’ new rule improperly allows a
patentee to rely on a post-hoc rationale, in light of the
accused product, for the narrowing amendment to recapture voluntarily surrendered claim scope. The new rule
thus creates perverse incentives at odds with the Patent
Act’s and this Court’s focus on public notice. Rather
than encouraging transparency during patent prosecution, these decisions encourage patentees to withhold
any explanation during prosecution for why they chose
particular amended claim language or what they did not
intend to surrender by that amendment. The patentee
is then free, in subsequent litigation, to craft with hindsight a rationale designed to be “tangential” to the alleged equivalent.
The effect of the court of appeals’ decision will be
devastating. The public will be denied notice of the actual scope of the surrender or what is subject to subsequent recapture as an “equivalent” until the end of infringement litigation, with the prospect of millions of
dollars in damages and potential injunctions. Like a patent claim employing indefinite terms, the “zone of uncertainty” that this pair of Federal Circuit precedential
decisions has created raises a “risk of infringement
claims” that will inevitably deter “enterprise and experimentation.” Nautilus, Inc. v. Biosig Instruments, Inc.,
572 U.S. 898, 909 (2014) (quoting United Carbon Co. v.
Binney & Smith Co., 317 U.S. 228, 236 (1942)).
Certiorari is warranted to restore the public notice
function of a patent’s prosecution history and prevent
further harm to innovation in the United States.

5
Applicable Legal Doctrines
1.

The Doctrine Of Equivalents, Counterbalanced By Prosecution History Estoppel

This Court has long held that under the doctrine of
equivalents, a product that does not literally infringe the
express terms of a patent claim may nonetheless be
found to infringe if there is “equivalence” between elements of the accused product and elements of the patent
claim. See Warner-Jenkinson, 520 U.S. at 321. This equitable doctrine protects a patentee “against efforts of
copyists to evade liability for infringement by making
only insubstantial changes to a patented invention.”
Festo, 535 U.S. at 727. At the same time, the Court has
acknowledged that if the doctrine of equivalents is applied broadly, it “can create substantial uncertainty
about where the patent monopoly ends.” Ibid. This
“conflicts with the definitional and public-notice functions of the statutory claiming requirement,” WarnerJenkinson, 520 U.S. at 29, which are the Constitutional
quid pro quo for a patentee’s right to exclude, see
Kewanee Oil Co. v. Bicron Corp., 416 U.S. 470, 484
(1974). The prosecution history is an important part of
that public disclosure quid pro quo. See Graham v. John
Deere Co., 383 U.S. 1, 33 (1966).
The Court has recognized that invoking the doctrine
of equivalents to reclaim territory surrendered during
patent prosecution presents particular risk to the patent’s public notice function. Thus, the Court has held
that “[w]hen the patentee responds to [a Patent Office]
rejection by narrowing [the] claims, this prosecution history estops [the patentee] from later arguing that the
subject matter covered by the original, broader claim”
but not covered by the narrower, amended claim, “was

6
nothing more than an equivalent” of the amended claim.
Festo, 535 U.S. at 727. “Competitors may rely on the estoppel to ensure that their own devices will not be found
to infringe by equivalence.” Ibid. Over the past century,
the Court has repeatedly emphasized prosecution history estoppel as a counterbalance to the doctrine of
equivalents, to “ensure[] that the doctrine of equivalents
remains tied to its underlying purpose.” Festo, 535 U.S.
at 734; Warner-Jenkinson, 520 U.S. at 34; Keystone
Driller Co. v. Nw. Eng’g Corp., 294 U.S. 42, 48 (1935).
“Mindful that claims do indeed serve both a definitional and a notice function,” the Court has placed “the
burden on the patent holder to establish the reason for
an amendment required during patent prosecution.”
Warner-Jenkinson, 520 U.S. at 33. To rebut the presumption, the patentee “bear[s] the burden of showing
that the amendment does not surrender the particular
equivalent in question.” Festo, 535 U.S. at 740.
The Court cabined the showing necessary to rebut
the presumption of prosecution history estoppel to three
limited circumstances: (1) where the equivalent was “unforeseeable at the time of the application”; (2) where “the
rationale underlying the amendment * * * bear[s] no
more than a tangential relation to the equivalent in question”; or (3) where, for some other reason, “the patentee
could not reasonably be expected to have described the
insubstantial substitute in question.” Festo, 535 U.S. at
740-741. In these ways, the patentee can “show that at
the time of the amendment one skilled in the art could
not reasonably be expected to have drafted a claim that
would have literally encompassed the alleged equivalent.” Id. at 741.

7
2.

The Tangential Exception, Pre-2019

Until the present case and Hospira, in the nearly 20
years since this Court’s decision in Festo, the Federal
Circuit’s tangential exception analysis has “focuse[d] on
the patentee’s objectively apparent reason for the narrowing amendment” and required that such “reason
should be discernible from the prosecution record” in order for “the public notice function of a patent and its
prosecution history * * * to have significance.” Festo,
344 F.3d at 1369-1370.
Consistent with that jurisprudence, the Federal
Circuit has explained that “[s]ilence [at the time of
amendment] does not overcome the presumption” of
prosecution history estoppel. Honeywell Int’l, 523 F.3d
at 1316. The Federal Circuit has, thus, applied prosecution history estoppel where the patentee provided “no
explanation in the prosecution history for the addition of
the [narrowing] limitation.” Felix v. Am. Honda Motor
Co., 562 F.3d 1167, 1184 (2009). Likewise, the Federal
Circuit has also rejected a patentee’s post-hoc rationales,
such as inventor declarations submitted during litigation
purporting to describe the reason an amendment was
made. Pioneer Magnetics, Inc. v. Micro Linear Corp.,
330 F.3d 1352, 1356 (2003).
Prior to this case and Hospira, when the Federal
Circuit applied the tangential exception to rebut the presumption of prosecution history estoppel, it specifically
looked to the patentee’s explicit explanation in the prosecution history of how its amendment overcame the rejection. See Insituform Techs., Inc. v. CAT Contracting,
Inc., 385 F.3d 1360, 1370 (2004) (patentee’s argument in
the prosecution history based on location of the vacuum
source was tangential to the number of vacuum sources);

8
Regents of Univ. of Cal. v. Dakocytomation Cal., Inc.,
517 F.3d 1364, 1378 (2008) (patentee’s argument in the
prosecution history that prior art did not teach its blocking method generally was tangential to the specific reagents used in the method); Intervet Inc. v. Merial Ltd.,
617 F.3d 1282, 1291 (2010) (patentee’s argument in the
prosecution history distinguishing prior art based on the
organism from which the genes were derived was tangential to the specific gene sequences that may be derived from the claimed organism).
In August 2019, the Federal Circuit made a dramatic departure from this historical precedent. In the
present case and Hospira, the Federal Circuit applied
the tangential exception, notwithstanding that the patentees had provided no explanation in the prosecution
history as to how their claim amendments overcame the
rejections in question or that they intended to surrender
less than the entire territory between the original and
amended claims. See App., infra, 20a, 23a-24a; Eli Lilly
& Co. v. Hospira, Inc., 933 F.3d 1320, 1331 (Fed. Cir.
2019).
Proceedings Below
1. Prosecution History Of U.S. Patent No.
7,666,655 And The Alleged Equivalent
U.S. Patent No. 7,666,655 (the ’655 patent), the only
patent at issue in this petition, relates to E. coli strains
used to produce tryptophan.
Claim 1 of the ’655 patent originally claimed proteins
that characterized those strains in terms of their structure: “a protein which comprises an amino acid sequence including deletion, substitution, insertion or ad-

9
dition of one or several amino acids in the amino acid sequence shown in SEQ ID NO:2.” App., infra, 18a-19a
(emphasis added) (quoting C.A. App. 5047). There is no
dispute that the original claim captured the alleged
equivalent. Id. at 39a (Dyk, J. dissenting).
The Examiner rejected the claim as anticipated in
view of prior art (Livshits) that disclosed a protein having the structure recited in original claim 1. App., infra,
19a.
In response, the patentee amended the claim so that
it no longer defined the proteins by their structure but,
instead, redefined them as: proteins “encoded by a nucleotide sequence that hybridizes with the nucleotide sequence of SEQ ID NO:1 under stringent conditions.”
App., infra, 19a (emphasis added) (quoting C.A. App.
5609). There is no dispute that the alleged equivalent is
outside the literal scope of the amended claim. It is not
“encoded by” the recited nucleotide sequence. Id. at 17a,
40a (Dyk, J. dissenting).
It is also not disputed that, when narrowing and redefining the claim to overcome the art, the patentee did
not provide the Examiner or public with any explanation
regarding the amendment. Rather, the patentee provided only a factual summary of the rejection and a conclusory statement that, in view of the amendment, the
cited art no longer anticipated the claim:
The Examiner cites Livshits et al as disclosing
a bacterium within the scope of Claim 1. This
amendment [sic, rejection] was based on the
broad interpretation of Claim 1 (B) as encompassing any protein that would result in an increase in L-amino acid production due to the

10
use of the phrase “an amino acid sequence including deletion, substitution, insertion or addition of one or several amino acids in the
amino acid sequence shown in SEQ ID NO:2.”
Applicants have amended part (B) of Claim 1
to define the protein as one that is “encoded
by a nucleotide sequence that hybridizes with
the nucleotide sequence of SEQ ID NO: 1 under stringent conditions comprising 60°C, 1 x
SSC, 0.1% SDS.” In view of this amendment,
Livshits et al no longer anticipates the claimed
invention.
C.A. App. 5617 (underlining and italics in original,
bolding added); see also App., infra, 39a (Dyk, J. dissenting). The patentee never explained how its amendment
and redefinition of the protein distinguished the cited art.
The patentee just said it did. The patentee likewise
never said that it intended to surrender less than the entire territory between the original and amended claim.
Finally, it is undisputed that the patentee at the
time it narrowed the claim knew how to claim the alleged
equivalent, insomuch as the original claim did just that.
App., infra, 39a (Dyk, J. dissenting).
2. The International Trade Commission
In its decision, the Commission held that the patentee’s narrowing amendment created a presumption
of prosecution history estoppel with respect to the protein redefinition. App., infra, 93a-94a. The Commission
held, however, that the tangential exception applied. Id.
at 95a. The Commission did not identify a rationale for
the narrowing amendment. Id. at 96a. Rather than identify the rationale for the amendment, the Commission

11
concluded that the narrowing amendment itself was tangential to the alleged equivalent, id. at 96a-97a, and
found that the alleged equivalent infringed the amended
claim under the doctrine of equivalents.
3.

The Federal Circuit Appeal

The parties cross-appealed the Commission’s decision to the Federal Circuit. Because the prosecution history was silent about the patentee’s rationale for the
narrowing amendment, each party—petitioners, respondents, and the Commission—hypothesized a different purported rationale. Petitioners argued that the patentee’s silence necessarily meant that it had surrendered the full scope of subject matter between the original claim and the amended claim. CJ Opening C.A. Br.
44-45. Respondents, by contrast, argued that the patentee intended to surrender only the protein cited in
the Examiner’s rejection and “possibly” other proteins
that were not functionally equivalent to the protein
characterizing the claimed strains. Ajinomoto Responsive/Reply C.A. Br. 41-42. The Commission, for its part,
asserted that the amendment limited the claim to certain
types of genes. ITC C.A. Br. 66.
A divided panel of the court of appeals affirmed the
Commission’s determination that the tangential exception applied and rebutted the presumption of prosecution history estoppel. App., infra, 20a. The court of appeals did not, however, accept any of the parties’ hypothesized rationales. Instead, it found, sua sponte, that
the reason the patentee chose the language of its amendment was “to limit the set of proteins within the claim’s
scope so that it no longer included the prior art E. coli
YfiK protein and, more generally, no longer allowed as
wide a range of amino acid alterations” (hence deletions,

12
substitutions, insertions, or additions to the structure of
the protein) as the original claim. Id. at 23a. In support
of its post-hoc rationale, the Federal Circuit cited only
the original claim language, not any statement the patentee made at the time of the amendment. Ibid. (citing
C.A. App. 5047).
Judge Dyk dissented, emphasizing that the patentee’s hindsight assertion of a rationale for the narrowing amendment was inconsistent with how the claim
was, in fact, amended. App., infra, 40a-41a. Judge Dyk
further noted that “[t]he fact that the inventors may
have thought after the fact that they could have relied
on other distinctions in order to defend their claims is
irrelevant and speculative.” Id. at 41a (quoting Schwarz
Pharma, Inc. v. Paddock Labs., Inc., 504 F.3d 1371, 1377
(Fed. Cir. 2007)).
Judge Dyk finally observed that “[t]he problem with
the majority’s analysis is that it ignores how the patentee deliberately elected to narrow the claims” during
prosecution, specifically that “the patentee deliberately
chose to redefine” the protein element of the claim specifically to distinguish the prior art, as the prior art protein (Livshits) was made by a nucleotide sequence that
did not meet the newly added “hybridization” requirement. App., infra, 40a-41a. In sum, Judge Dyk found
that the tangential exception could not apply, because
“the rationale for the narrowing amendment (avoiding a
prior art protein based on its encoding nucleotide sequence that does not meet the newly claimed hybridization requirement) directly relates to the accused equivalent (a protein made by an encoding nucleotide sequence, that does not meet the newly claimed hybridization requirement).” Id. at 42a.

13
Three days after its decision here, in Hospira, the
Federal Circuit again applied the tangential exception
despite the lack of any contemporaneous explanation
from the patentee for its narrowing amendment. 933
F.3d at 1331-1332.
Petitioners and the Hospira defendants sought rehearing, each cross-referencing the other’s petition, explaining that the Federal Circuit’s decisions represented
a dramatic shift in the Federal Circuit’s approach to
prosecution history estoppel and undermined the public
notice function—particularly as it pertains to the tangential exception that this Court announced in Festo.
The Federal Circuit declined to rehear either appeal.
App., infra, 110a-111a.
REASONS FOR GRANTING THE PETITION
The issue here goes to the very heart of the patent
system: the public’s right (and indeed necessity) to rely
on a patent’s prosecution history to determine the metes
and bounds of a claim. The Federal Circuit’s decisions
here and in Hospira significantly frustrate the public notice function of the prosecution history. They allow a patentee to recapture claim scope it voluntarily surrendered during prosecution in order to secure allowance of
its patent, despite the patentee’s having provided no notice to the public that it intended to surrender any less
than the entire territory between the original and
amended claims. These decisions force the public to face
“a zone of uncertainty” about the scope of countless patents, disrupting the longstanding, delicate counterbalance between the doctrine of equivalents and prosecution history estoppel that this Court has established.
And, critically, the decisions mean that accused infringers and the public-at-large will not know the scope of

14
such recapture until the end of an infringement suit,
where after years of uncertainty, millions of dollars in
damages and a potential injunction may be at stake.
Just as importantly, if these precedential decisions
were to stand, the uncertainty they create will stifle the
progress of science and the useful arts. Potential innovators, who would otherwise be able to design around a
patent, may instead decline to do so, unwilling to run the
risk of being found to infringe under a doctrine of equivalents theory that recaptures what a patentee appears
on the face of the patent and the prosecution history to
have surrendered.
This concern is particularly applicable in the pharmaceutical industry. Absent this Court’s intervention, a
pharmaceutical company may be less incentivized, for
example, to develop a new product that increases the efficacy or safety of a patented product because, under
these decisions, a patentee may, years after the fact, be
permitted to recapture subject matter that it had surrendered during prosecution to secure issuance of a patent. To avoid the potential waste of billions of dollars,
pharmaceutical companies will forgo development, and,
as a consequence, consumers may never receive the benefit of some innovative new product or technology.
This Court should grant certiorari and return the
Federal Circuit to this Court’s precedents, restoring the
public notice function of the prosecution history.

15
I.

THE FEDERAL C IRCUIT’S DECISION UNDERMINES T HE P UBLIC N OTICE F UNCTION O F A P ATENT’ S P ROSECUTION H ISTORY
A. Prosecution History Estoppel Is A Key Component Of Patents’ Public Notice Function

The very foundation of patent law is that the public
must have notice of the metes and bounds of a patent.
As this Court has explained, to promote the progress of
science and the useful arts, the Constitution mandates
that a skilled artisan and the public must be able to reasonably ascertain what is covered by a patent (and what
is not) by reading the claims in light of the patent and
the prosecution history. Nautilus, Inc. v. Biosig Instruments, Inc., 572 U.S. 898, 901 (2014); Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722, 730731 (2002). A patent protects only that which is claimed
and not what the patentee has surrendered and dedicated to the public. Festo, 535 U.S. at 740.
The patent system strikes a balance. It “seeks to
guard against [both] unreasonable advantages to the patentee and disadvantages to others arising from uncertainty as to their rights.” General Elec. Co. v. Wabash
Appliance Corp., 304 U.S. 364, 369 (1938). The principle
of patent law that the metes and bounds of a patent are
coextensive with public notice serves two important
functions necessary to maintain that balance. It affords
patentees certainty as to the scope of their rights, while
also encouraging innovators to develop alternative ways
to achieve the goal of what the patent claims. Festo, 535
U.S. at 731. Indeed, the Court has stressed that the public “should be encouraged to pursue innovations, creations, and new ideas beyond the inventor’s exclusive

16
rights.” Ibid. (citing Bonito Boats, Inc. v. Thunder Craft
Boats, Inc., 489 U. S. 141, 150-151 (1989)).
Nearly two centuries ago, this Court explained the
paramount importance of public notice: to prevent a patentee from “practising upon the credulity or the fears
of other persons, by pretending that his invention is
more than what it really is.” Evans v. Eaton, 20 U.S.
356, 434 (1822). Without “clear notice,” Nautilus, 572
U.S. at 909, innovators will not be willing to invest the
time, money, and resources needed to innovate around a
patent, especially in highly competitive, cutting-edge
technical fields.
This Court has long safeguarded the public notice
function of the patent’s prosecution history. Indeed,
while the Court has allowed patentees to rely on the doctrine of equivalents to expand a patent’s protection beyond the literal scope of claims narrowed during prosecution, the Court has done so only in limited circumstances and in recognition of “language’s inability to capture the essence of innovation” perfectly. Festo, 535
U.S. at 734. But, the Court has always recognized that
because the doctrine of equivalents “conflicts with the
definitional and public-notice functions of the statutory
claiming requirement,” Warner-Jenkinson Co. v. Hilton
Davis Chem. Co., 520 U.S. 17, 29 (1997), it must be applied with restraint, so as not to stifle innovation.
The potential for uncertainty to chill innovation is
precisely why this Court has, for over a century, repeatedly stressed that prosecution history estoppel imposes
“limits on the doctrine of equivalents.” Warner-Jenkinson, 520 U.S. at 34. Competitors must be able to
“rely on the prosecution history, the public record of the
patent proceedings” for purposes of “estoppel to ensure

17
that their own devices will not be found to infringe by
equivalence.” Festo, 535 U.S. at 727. In other words,
“[t]he limits of a patent must be known,” not just “for the
protection of the patentee, [but for] the encouragement
of the inventive genius of others.” General Elec. Co., 304
U.S. at 369.
In carefully calibrating this balance, the Court has
placed the burden of ensuring proper notice of the
claims’ scope squarely on the patentee—including the
burden to show an exception to prosecution history estoppel. As this Court explained in Warner-Jenkinson,
because patent claims “serve both a definitional and a
notice function * * * the better rule is to place the burden
on the patent holder to establish the reason for an
amendment required during patent prosecution.” 520
U.S. at 33. In Festo, this Court was even more explicit:
“the patentee should bear the burden of showing that
the amendment does not surrender the particular equivalent in question.” 535 U.S. at 740. Indeed, “[w]hen the
patentee is unable to explain the reason for amendment,
estoppel not only applies but also ‘bar[s] the application
of the doctrine of equivalents as to that element.’ ” Id. at
740 (quoting Warner-Jenkinson, 520 U.S. at 33).
The public notice function requires faithful adherence to this burden of proof. The public must be able to
rely on the prosecution history. Patentees cannot be
permitted to use after-the-fact arguments, developed
with an eye on the accused product, to recapture in litigation subject matter that they wish they had not disclaimed during prosecution. The Federal Circuit’s decisions here and in Hospira dramatically undermine that
public notice function by allowing patentees to rely on
just such post-hoc reasoning.

18
This Court’s review and clarification is urgently
needed. The Court should confirm, consistent with the
underlying purpose of public notice and the Patent Act’s
emphasis on disclosure, that the patentee is bound by its
actions in prosecution and is therefore required to point
to an explanation in the prosecution history as to why
prosecution history estoppel should not apply. If, by
contrast, a post-hoc rationale, developed so as to be “tangential” to an accused product’s purported “equivalence,” is permitted, then competitors cannot know if
their innovation around the existing patent will nonetheless be deemed to infringe.
B. The Public Notice Function Of The Prosecution History Is Undermined By The Federal
Circuit’s Use Of A Post-Hoc Rationale In The
Face Of A Patentee’s Silence
If a patentee intends to invoke the doctrine of equivalents during litigation to recapture subject matter disclaimed during prosecution, the patentee must point to a
contemporaneous explanation in the prosecution history
that provides notice to the public that the patentee intended to surrender less than the full scope of the disclaimer. Only such a rule strikes the appropriate balance
between the patentee’s interests and public notice, is
consistent with the purpose of the Patent Act, and is the
logical implication of this Court’s precedent. Indeed,
this Court has long evaluated prosecution history estoppel by looking at the patentee’s actions and statements
in the prosecution, not rationales that the patentee offers years after the fact.
Well over a century ago, the Court noted that “[i]f
an applicant, in order to get his patent, accepts one with

19
a narrower claim than that contained in his original application, he is bound by it. If dissatisfied with the decision rejecting his application, he should pursue his remedy by appeal”—not by resorting to the doctrine of
equivalents to “enlarge [the] patent by argument, so as
to cover elements not falling within its terms.” Shepard
v. Carrigan, 116 U.S. 593, 598 (1886). To that end, the
Court has explained that “limitations imposed by the inventor, especially such as were introduced into an application after it had been [] rejected, must be strictly construed against the inventor and looked upon as disclaimers.” I.T.S. Rubber Co. v. Essex Rubber Co., 272 U.S.
429, 443-444 (1926) (emphasis added). In Exhibit Supply
Co. v. Ace Patents Corp., for example, the Court expressly looked to the patentee’s actions in narrowing the
claims, recognizing that “[b]y the amendment, he recognized and emphasized the difference between the two
phrases and proclaimed his abandonment of all that is
embraced in that difference.” 315 U.S. 126, 136 (1942).
And, this Court explained in Festo that the patentee’s
“decision to forgo an appeal [from the Patent Office’s rejection] and submit an amended claim is taken as a concession that the invention as patented does not reach as
far as the original claim.” 535 U.S. at 734.
There is no dispute that here, the patentee provided
no reason in the prosecution history of the ’655 patent
why it chose its amended claim language and provided
no indication that it meant to surrender less than the full
scope of territory between the original and amended
claim language. Instead, the prosecution history shows
only that (1) the Examiner rejected the original claim as
anticipated by the prior art, App., infra, 19a, (2) the patentee redefined the claim through a narrowing amendment, App., infra, 19a, 40a (Dyk, J. dissenting), and (3)

20
the patentee said only that in view of its amendment, the
prior art “no longer anticipates.” App., infra, 39a (Dyk,
J. dissenting). Under controlling precedent, a patentee’s
“decision to forgo an appeal and submit an amended
claim is taken as a concession that the invention as patented does not reach as far as the original claim.” Festo,
535 U.S. at 734. Here, if the patentee intended to surrender less than the full scope between the original claim
and the amended and redefined claim, the patentee was
required to say so at the time. Absent that explicit notice, the public is entitled to reasonably understand that
the patentee had dedicated the full scope between the
original and amended claim to the public. Exhibit Supply Co., 315 U.S. at 137. If the patentee wants to limit
that disclaimer, the law requires far more than silence.
Festo, 535 U.S. at 740-741. Indeed, this Court’s precedent that “limitations imposed by the inventor * * * must
be strictly construed against the inventor and looked
upon as disclaimers,” I.T.S. Rubber Co., 272 U.S. at 443444, is particularly important here where the patentee
has offered no contemporaneous explanation for its narrowing amendment or statement that it intended to surrender less than the territory between the original and
amended claims. Otherwise, a patentee (like here) remains free to invent, post hoc, any one of many plausible
rationales for its apparent disclaimer. The wide variety
of possible explanations inherent in every narrowing
amendment creates precisely the “zone of uncertainty”
around the claim that this Court said is impermissible.
Indeed, this case exemplifies the “zone of uncertainty” that exists if post-hoc rationales are allowed, and
why this Court should clarify that a patentee’s silence
concerning a narrowing amendment to overcome a rejec-

21
tion related to patentability bars any rebuttal to the presumption of prosecution history estoppel. Otherwise, as
here, public notice falls by the wayside as the patentee’s
silence in the prosecution history led each of petitioners,
respondents, the ITC, the Federal Circuit majority, and
Judge Dyk in dissent to hypothesize a different “objectively apparent reason” for the amendment. See pp. 1112, supra. That is a game of chance, not public notice.
Indeed, respondents themselves could not identify a single rationale for the amendment, saying it could “possibly” be two different reasons. Ajinomoto Responsive/Reply C.A. Br. 41-42. If the patentee could not determine the reason for its own amendment, how could
the public have been expected to do so?
This case and Hospira reflect a dangerous departure by the Federal Circuit from this Court’s (and the
Federal Circuit’s own) prior precedent. In Hospira, the
Federal Circuit ignored the particular amended claim
language that the patentee chose in a narrowing amendment to distinguish the cited art and applied the tangential exception. 933 F.3d at 1331-1332. The Hospira court
focused on the Examiner’s rejection (i.e., why the patentee needed to amend at all), rather than how the patentee actually narrowed the claim and the arguments it
made when doing so. Id. at 1332 (examining the basis of
the Examiner’s rejection and stating that while the patentee’s amendment may have been “inartful,” it was
“prudential in nature” and did not need to surrender certain scope in order to avoid the prior art). Applying this
post-hoc, “prosecution remorse” approach, both here and
in Hospira, the Federal Circuit has made an about-face
in its prosecution history estoppel jurisprudence—effectively abrogating the public notice function of the prosecution history and allowing patentees years after the

22
fact to posit new rationales for the amendment, in an attempt to rely on the doctrine of equivalents to recapture
subject matter the public had every reason to believe the
patentee had voluntarily surrendered during prosecution to obtain the patent.
II. THE FEDERAL CIRCUIT’S N EW RULE POSES A
GRAVE THREAT TO I NNOVATION
By abandoning the previous rule that a patentee’s
silence at the time of amendment precludes invoking the
doctrine of equivalents, see Honeywell Int’l, Inc. v.
Hamilton Sundstrand Corp., 523 F.3d 1304, 1316, cert.
denied, 555 U.S. 939 (2008), the Federal Circuit has created a significant disincentive to innovation. Now, a
court can simply ignore a patentee’s silence during prosecution and instead fill in the silence with its view “why”
the patentee needed to amend (e.g., to overcome the rejection) and what the patentee may have intended by the
amendment. Such an approach creates an untenable uncertainty for members of the public when considering
whether a future innovation would infringe a patent
claim. As a consequence, the Federal Circuit’s new rule
will discourage innovation.
In the aftermath of these precedential Federal Circuit decisions, when the prosecution history is silent as
to a patentee’s reason for making a narrowing amendment to distinguish the prior art, the public—including
potential innovators—will have to assume that the patentee will try to formulate, in hindsight, a rationale for
the amendment that is “tangential” to the way the new
innovation differs from the narrower claim. Given the
uncertainty this creates, “the language of patent claims
can never be relied on.” Duncan Parking Techs., Inc. v.

23
IPS Grp., Inc., 914 F.3d 1347, 1362 (Fed. Cir. 2019) (quoting London v. Carson Pirie Scott & Co., 946 F.2d 1534,
1538 (Fed. Cir. 1991)). The consequence is that the doctrine of equivalents will loom over every good faith attempt to innovate around a patent.
To allow the Federal Circuit’s decision to stand will,
therefore, dangerously undermine the public notice
function of patents and their prosecution histories that
forms the basis for the constitutional quid pro quo of a
patentee’s right to exclude. Innovators would be forced
to live under the unfettered and unclear shadow of the
doctrine of equivalents, left with only guesses and assumptions about what a patentee might have intended
when narrowing the scope of the claims. Potential innovators would be left to innovate at their peril, running
the risk of a court divining years after the fact that a patentee did not really have to or intend to surrender what
it appeared at the time to have disclaimed, resulting in
catastrophic damages or injunctive relief. The result of
this “zone of uncertainty” is clear: innovation would be
stifled. Understandably, to play it safe, many would-be
innovators would stay on the sidelines, avoiding the risk,
and depriving the public of countless innovations.
The perverse, but natural, consequence of the court
of appeals’ new rule is that patentees hoping to preserve
their flexibility to rely on the doctrine of equivalents in
subsequent litigation are incentivized not to disclose any
rationale for narrowing amendments made during prosecution. By remaining silent during prosecution, patentees would remain free to devise later theories to recapture the very subject matter disclaimed to obtain their
patents. This perverse incentive undermines the core

24
purpose of the patent system—the “quid pro quo” of disclosure in exchange for the right to exclude. Kewanee
Oil Co. v. Bicron Corp., 416 U.S. 470, 484 (1974).
III. RESTORING THE PUBLIC N OTICE FUNCTION O F
PROSECUTION H ISTORY REQUIRES THIS COURT’S
IMMEDIATE INTERVENTION, A ND THIS CASE IS
AN IDEAL VEHICLE
This Court last addressed the interplay between the
doctrine of equivalents and prosecution history estoppel
nearly two decades ago, in Festo. Although the Federal
Circuit initially adhered to those principles, in this case
(and in Hospira), it has now sharply deviated from
them—undercutting the public notice function of the
prosecution history and destroying the balance between
the doctrine of equivalents and prosecution history estoppel, with devastating future consequences. This case
is an ideal vehicle for the Court to restore that balance
and prevent a further degradation of prosecution history
estoppel and its public notice function by the Federal
Circuit.
A. This Case (And Hospira) Sharply Break
From Precedent
Through Festo, Warner-Jenkinson, and more than a
century’s worth of precedent, this Court has stressed
the public notice function of prosecution history estoppel
and its role in limiting the doctrine of equivalents. The
Court has, moreover, emphasized that “the doctrine of
equivalents and the rule of prosecution history estoppel
are settled law. The responsibility for changing them
rests with Congress,” not the Federal Circuit. Festo
Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535
U.S. 722, 739 (2002). But that is precisely what the Federal Circuit has done here.

25
The Federal Circuit’s post-hoc divining of a rationale for a narrowing amendment in the absence of any
contemporaneous explanation from the patentee directly conflicts with Festo’s holdings that “the patentee
should bear the burden of showing that the amendment
does not surrender the particular equivalent in question,”
and that “[w]hen the patentee is unable to explain the
reason for amendment, estoppel * * * not only applies
but also ‘bar[s] the application of the doctrine of equivalents as to that element.’ ” Festo, 535 U.S. at 740. As
Judge Dyk explained in dissent, the Federal Circuit previously (and correctly) held that post-hoc arguments for
overcoming the rejection not raised in the prosecution
history itself are “irrelevant and speculative.” App., infra, 40a-41a (citing Schwarz Pharma, 405 F.3d at 1377).
The Federal Circuit also ignored its own previous
recognition that “[s]ilence does not overcome the presumption” of prosecution history estoppel. Honeywell
Int’l, Inc. v. Hamilton Sundstrand Corp., 523 F.3d 1304,
1316, cert. denied, 555 U.S. 939 (2008); see also Felix v.
Am. Honda Motor Co., 562 F.3d 1167, 1184 (Fed. Cir.
2009) (tangential exception does not apply when there is
“no explanation in the prosecution history for the addition of the [narrowing] limitation”).
As explained above, prior to this case and Hospira,
the Federal Circuit applied the tangential exception
looking to a patentee’s explicit and contemporaneous explanations in the prosecution history as to what the patentee was surrendering and what it was not. See, e.g.,
Insituform Techs., Inc. v. CAT Contracting, Inc., 385
F.3d 1360, 1370 (2004) (relying on patentee’s explicit argument and distinguishing the case where “no explanation is given for a claim amendment”); Regents of Univ.

26
of Cal. v. Dakocytomation Cal., Inc., 517 F.3d 1364, 1378
(2008) (citing specific arguments in the prosecution history); Intervet Inc. v. Merial Ltd., 617 F.3d 1282, 1291
(2010) (quoting from the prosecution history and citing
patentee’s specific arguments). Yet, now apparently favoring the patentee to the detriment of the public, the
Federal Circuit has dramatically changed course, finding
it appropriate to rely on its own post-hoc, hypothetical
“rationale” for the narrowing amendment—why the
amendment was needed and what had to be surrendered
to distinguish the art—and ignoring the patentee’s silence at the relevant time to invoke the tangential exception to prosecution history estoppel.
Because the Federal Circuit has exclusive jurisdiction of patent appeals, 28 U.S.C. 1295, there cannot be a
circuit split with regard to the issues presented here,
and as the denials of the en banc petitions here and in
Hospira show, the issue is unlikely to percolate any further.
B. The Patentee’s Silence In The Prosecution
History Makes This Case The Ideal Vehicle
For Certiorari
This case provides an ideal vehicle for refocusing the
Federal Circuit on the public notice function of patent
prosecution and clarifying the proper analysis of the tangential exception to prosecution history estoppel.
In this case, the patentee made no argument whatsoever during prosecution as to how its narrowing
amendment overcame the prior art rejection, why it
chose the amended claim language that it did, or whether
it intended to surrender any less than the full territory
between its original and amended claims. C.A. App.
5617; see also App., infra, 39a (Dyk, J. dissenting). All

27
the patentee did was to provide a factual summary of the
Examiner’s rejection and state that its amendment overcame the prior art. Ibid.
Accordingly, this petition does not ask whether the
Federal Circuit correctly analyzed the prosecution history, but whether it should have conducted a post-hoc
analysis at all. The Court does not need to weigh the
evidence or the parties’ arguments. It simply needs to
reemphasize the overriding public notice function of the
prosecution history and the logical implication of precedent: a patentee’s silence in the prosecution, in the context of the rationale for a narrowing amendment, bars
its reliance on the doctrine of equivalents to recapture
during litigation subject matter surrendered to get the
patent allowed. Festo, 535 U.S. at 740-741.
This case presents an issue of compelling importance: is the public entitled to rely on a patentee’s
statements—or lack thereof—in the context of a narrowing amendment to overcome the prior art, or may a patentee recapture disavowed claim scope years after the
fact by offering a hindsight, post-hoc, unsupported rationale for narrowing its claims? The Federal Circuit
has broken with precedent and chosen the latter, frustrating the important public notice function of the prosecution history and threatening the very innovation that
results from the quid pro quo of the patent system.

28
CONCLUSION
For the foregoing reasons, petitioners respectfully
ask the Court to grant the petition for a writ of certiorari
and reverse the judgment of the court of appeals.
Respectfully submitted,
DOUGLAS HALLWARD-DRIEMEIER
STEVEN PEPE
MATTHEW J. RIZZOLO
RACHAEL BACHA
HYUN-JOONG KIM
PHILLIP Z. YAO
ROPES & GRAY LLP
JAMES F. HALEY, JR.
BRIAN M. GUMMOW
HALEY GUILIANO LLP
Counsel for Petitioners
FEBRUARY 2020

